                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

(1) TO: AIGI           File Number: 194120045                                     I Date: 15 March 2002
    Subject: Closeout Memo                                                                   Page 1 of 1




I         There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          Our office was informed that the subject' was alleged to have submitted false statements in his NSF
          proposal. The subject had an out-of-business company provide a letter stating it would donate
          equipment2so that the subject could receive NSF matching finds.l We verified that this currently
          out-of business company did in fact donate a certain amount of equipment to the subject. The
          subject's university4provided an account summary and list of matching funds that corroborated the
          testimony of the company. No fraud or misconduct found.

          Accordingly this case is closed.




                   1    Prepared by:   I                   Cleared by:            11
                       Agent:              Attorney:     Supervisor:     AIGI
       Name:

                                       I



     Signature &
        date:
